Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
                                     TABLE OF CONTENTS

INTRODUCTION                                                                           1

                       PURPOSE                                                         1
                       BACKGROUND                                                      1
                       SCOPE AND METHODOLOGY                                           2


RESULTS OF THE REVIEW                                                                 4

                       INS NORTHERN BORDER STRATEGY                                    4
                       BORDER PATROL NORTHERN BORDER OPERATIONS                        5
                          Staffing                                                     5
                          Equipment                                                    8
                          Intelligence Support                                         9
                          Changes in Operations Since September 11, 2001               9


CONCLUSION                                                                            11




U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004


                                    INTRODUCTION


Purpose

      In February 2000, the Office of the Inspector General (OIG) issued an
inspection report entitled Border Patrol Efforts Along the Northern Border,
I-2000-04 (2000 report). In that report, we concluded that the Border Patrol
faced significant enforcement challenges along the United States-Canada
border and was unable to adequately respond to illegal activity, primarily
because of a lack of sufficient staff and resources. The purpose of this
follow-up review was to examine the progress the Border Patrol has made in
improving the security of the northern border since the OIG issued the original
report, particularly in light of the events of September 11, 2001.


Background

       The 2000 report noted that the Border Patrol’s current Strategic Plan
(Plan), issued in 1994, was designed to strengthen the control of the United
States borders through the establishment of operational goals and performance
measures. The Plan was divided into four phases with no established
timeframes or milestones to measure progress. The first three phases
concentrated on specific areas of the southwest border. The Plan did not
address the northern border until its fourth and final phase. When we were
conducting field work for our 2000 report, the Border Patrol was in Phase II of
its Plan and would not estimate when implementation of Phase IV would begin.

       The Border Patrol’s 1994 Strategic Plan involves two distinct
methodologies for deploying resources to the southwest and northern borders.
Border Patrol officials told the OIG that the methodology on the southwest
border involves a forward deployment of resources as a deterrent. The
priorities for allocation of resources for this effort are personnel, equipment,
and technology. This methodology is based on the volume and type of
apprehensions on the southwest border as well as the close proximity of major
U.S. population centers to the southwest border. The forward-deployed,
personnel-intensive strategy is a reflection of the short amount of time the
Border Patrol has to respond to illegal aliens before they disappear into the
U.S. population.

      The methodology for the northern border is different. The priorities for
allocation of resources for this effort are liaison/intelligence, technology,
equipment, and personnel. This methodology is based on the general lack of
U.S. Department of Justice                                                            1
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
large U.S. population centers on the northern border and the longer times
available for the Border Patrol to respond to illegal aliens.

      Our 2000 report examined how the Border Patrol collected and assessed
information about illegal activity occurring along the northern border and how
the Border Patrol used its resources to respond to it. The report reviewed the
allocation of Border Patrol resources to the northern border and concluded the
allocation was insufficient.1

       The 2000 report found that the Border Patrol was unable to accurately
assess the level of illegal activity along the northern border. Border Patrol and
Immigration and Naturalization Service (INS) officials described shortcomings
of the data commonly used to track illegal activity. This lack of concrete
information on the magnitude of illegal activity made it difficult for the Border
Patrol to assess the need for and the proper placement of its resources.

       In addition, our 2000 report concluded that the Border Patrol was unable
to adequately respond to illegal activity along the northern border. The 324
Border Patrol agents (as of September 30, 1999) assigned to the eight northern
border sectors could not effectively monitor the approximate 4,000-mile border
with Canada. Northern border sector officials reported that some shifts had no
coverage, which left the border completely open to illegal activity. This
situation worsened when Border Patrol agents were detailed to support
operations on the southwest border. In addition, the report found that
northern border sectors lacked sufficient essential equipment, or “force
multipliers,” such as radios, cameras, sensors, and boats that could improve
enforcement capabilities.


Scope and Methodology

       This follow-up review primarily relied on information obtained from
interviews with the chief patrol agents in the eight northern sectors, Border
Patrol officials in the three INS regions (Eastern, Central, and Western), and
officials from INS Headquarters. In addition, the OIG examined workload
statistics provided by the INS’s Office of Statistics on Border Patrol enforcement
activities in the eight northern sectors for Fiscal Years (FY) 2000 and 2001.

      Prior to the interviews, we sent each of the eight chief patrol agents an
extensive questionnaire asking about current northern sector enforcement

       1 Of the Border Patrol’s 21 sectors, 8 are located on the northern border. The

headquarters for these eight northern sectors are located in Blaine, WA; Spokane, WA; Havre,
MT; Grand Forks, ND; Detroit, MI; Buffalo, NY; Swanton, VT; and Houlton, ME. The number of
Border Patrol stations operating under the control of each northern sector headquarters varies;
currently, the range is from four to nine stations.
U.S. Department of Justice                                                                   2
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
operations. This questionnaire solicited information and opinions from the
chief patrol agents on staffing levels and deployment status, equipment
condition and availability, resource needs, and intelligence sharing. We also
sent a copy of this questionnaire to Border Patrol officials in each of the three
INS regions and at INS Headquarters. After interviewing the chief patrol
agents, we discussed the results of these interviews with Border Patrol officials
in each of the three INS regions and at INS Headquarters.




U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004



                                    RESULTS OF THE REVIEW



INS Northern Border Strategy

       Since the Border Patrol had not initiated Phase IV of its Strategic Plan
that included the northern border, our 2000 report recommended that the INS
Commissioner direct the Border Patrol to outline the approach it would take to
secure the northern border, including, but not limited to, the following:

    •   identify and implementing accurate methods for collecting data to
        quantify the level of illegal activity and to support decisions about the
        allocation of personnel and equipment;

    •   determine the minimum number of intelligence analysts and intelligence
        aides needed to accurately assess the level of illegal activity; and

    •   determine the minimum number of Border Patrol agents the northern
        border sectors require to address existing gaps along the northern
        border.

       In FY 2000, Attorney General Janet Reno directed the INS to develop an
integrated strategy for securing the northern border. She stated that this was
a top Department priority. In response, INS Deputy Commissioner Mary Ann
Wyrsch convened a working group in August 2000 to develop an INS northern
border strategy. The working group consisted of managers from INS field
offices, Border Patrol sectors, INS regions, and INS Headquarters officials from
Programs, Inspections, Border Patrol, Intelligence, and Investigations. The
INS’s Office of Programs was placed in charge of the project. In January 2001,
the working group completed two documents − the INS Northern Border
Strategy and a corresponding Implementation Plan Guidance and Framework.
The Office of Programs presented the strategy to Attorney General Reno in
January 2001, immediately prior to the change of Administration.

       Since January 2001, the INS had made slow progress in implementing
the strategy. According to the Acting Executive Associate Commissioner for the
Office of Programs, the INS planned to wait until the new Administration took
office to seek approval for its northern border strategy. Attorney General John
Ashcroft was provided a copy of the strategy, but the INS elected not to take
action to obtain approval until a new INS Commissioner was sworn in.
However, Commissioner James Ziglar did not take office until August 6, 2002,
U.S. Department of Justice                                                            4
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
and any further action on the implementation of the strategy was overwhelmed
by the events of September 11, 2001.

      Since September 11, the interaction between the U.S. and Canadian
governments to promote cooperation along the northern border has
accelerated. In December 2001, the Attorney General, the INS Commissioner,
and the Homeland Security Director signed a 30-point action plan with
Canadian officials. The action plan involves multiple federal agencies including
the Department of Justice. The Department of State has lead responsibility for
the plan. Elements of the plan relate to coordinated law enforcement
operations, intelligence sharing, infrastructure improvements, improving
compatible immigration databases, visa policy coordination, permanent
resident cards, prescreening of air passengers, joint passenger analysis units,
increasing the need of biometric identifiers, and improved refugee/asylum
claims processing. INS officials told us that implementation of the plan is in
progress. In January 2002, the Attorney General announced the temporary
assignment of 100 Border Patrol agents to northern border sectors.


Border Patrol Northern Border Operations

      Based on this follow-up review, we found that the Border Patrol has
made improvements in some areas of its northern border enforcement
operations since we issued our original report in February 2000. However, all
eight Border Patrol sector chief patrol agents we interviewed described staffing,
equipment, and intelligence support deficiencies at the northern border
sectors.


Staffing

       The northern border sectors continue to have staffing shortfalls that
hinder Border Patrol efforts to adequately monitor the northern border. In
January 2002, the Border Patrol announced that it was temporarily deploying
100 Border Patrol agents to the northern border to augment the current staff.
The deployment would begin in January 2002 and continue for approximately
60 days. It is not yet certain how these Border Patrol agents will be deployed
or whether additional deployments will follow. The Border Patrol hopes to gain
the necessary information from this deployment to more accurately determine
its long-term staffing needs for the northern border.

      The chief patrol agents we interviewed said that since February 2000, the
greatest number of new agents that any northern border sector had received
was nine, while another sector reported no increase in agents. Four of the

U.S. Department of Justice                                                            5
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
eight sectors reported that because of continued staffing shortages none of
their stations were operating on a 24-hour basis.


        Border Patrol Agent Enhancements

      In FY 1999, 324 Border Patrol agents (3.8 percent of the national total)
were on duty at the northern border. In FY 2001, 368 Border Patrol agents
were on duty at the northern border (about 3.9 percent of the national total).
These additional 44 agents represent an increase of 13.6 percent in northern
border staff. In comparison, in FY 2001 the southwest border had 9,065
Border Patrol agents (a 9.7 percent increase from 1999).

                           Table 1 - Border Patrol Agents On Duty

    Authorized                       FY      FY        FY         Net           Percent
     Positions                      1999    2000      2001       Change         Change
 Northern Border                     324     344       368         44            13.6
 Southwest Border                   8,264   8,669    9,065         801            9.7
 Total2                             8,588   9,013    9,433         845            9.8
Source - Border Patrol Headquarters




      Border Patrol officials told the OIG that the recently enacted FY 2002
budget provides for 570 additional Border Patrol agent positions and that
approximately 25 percent of these positions will be allocated to the northern
border. This would bring the total number of Border Patrol agents on the
northern border to approximately 510. Border Patrol officials told us that they
feared that employment opportunities with the expanded federal air marshal
program may not only hinder recruitment efforts but may also affect the
retention of Border Patrol agents who are lured to the new program.

      Border Patrol officials told the OIG that even if all of the new Border
Patrol agents could be hired, trained, and brought on duty, serious
infrastructure issues on the northern border continue to exist that must be
addressed. These include office space for the new Border Patrol agents and
additional detention space (assuming additional Border Patrol agents will make
additional arrests).




        2   The total does not include New Orleans, Miami, Ramey, or Livermore Border Patrol
Sectors.
U.S. Department of Justice                                                                     6
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
        Support Staff Enhancements

       We found a great need exists for additional support staff on the northern
border. Most chief patrol agents told the OIG they need additional technical
support personnel (such as pilots, computer specialists, communications and
electronics technicians, vehicle and boat mechanics) to operate, repair, or
maintain aircraft, vehicles, boats, computers, cameras, sensors, and radios.
This need varies from sector to sector depending on its specific equipment
problems.

       Related to this issue, the Border Patrol developed an accounting system
to track the number of hours Border Patrol agents were diverted from
enforcement time to support activities. The intent of the system was to provide
documentation to validate support staff enhancement requests. However, the
system was used to monitor enforcement hours. Chief patrol agents said they
were pressured by INS management to reduce the number of Border Patrol
agent hours used for non-enforcement activities. As a result, support activities
are often not completed or not completed timely.

       The shortage of support staff is not a problem unique to the northern
border. The Border Patrol has not received, though it has requested, support
staff enhancements for the last three fiscal years. During the same period, its
technical and mechanical support requirements rose dramatically with an
influx of new sensors, night vision devices, computers, and vehicles.



        Temporary Duty

      The OIG 2000 report described temporary duty assignments for Border
Patrol agents from the under-staffed northern sectors to assist southwest
Border Patrol operations. The report found that the resulting staff reductions
on the northern border had an adverse effect on northern border enforcement
operations. In its November 2000 response to the OIG report, the INS stated
that the Border Patrol had discontinued the practice of detailing Border Patrol
agents from northern sectors to the southwest border.

      We confirmed during our interviews with the chief patrol agents in the
eight northern sectors that temporary duty assignments to the southwest
border have ceased. However, other temporary duty assignments away from
the northern border were still occurring. Six of the eight chief patrol agents
reported that one or two of their agents were temporarily assigned out of their
sectors to support an operation in Florida during the past two years. Three of
the four northern sectors were providing Border Patrol agents to this operation
at the time of our interviews in October and November 2001. Additionally, the
U.S. Department of Justice                                                            7
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
two northern sectors in the Western Region also had been providing Border
Patrol agents to this operation.

      The temporary assignment to support this operation usually lasted 30
days. Some sectors assigned one or more Border Patrol agents every month,
while other sectors sent them every other month. An Eastern Region official
told us that assigning Border Patrol agents from the northern border to
support. The operation ended in December 2001. According to the chief patrol
agents along the northern border, the temporary assignment of even one or two
Border Patrol agents had a significant impact on their northern border sector
operations.


Equipment

       The equipment needs of the northern border sectors have not been
completely met. This year some of the northern border sectors have received or
anticipate receiving new equipment such as boats, snowmobiles, and infrared
cameras while other sectors were unsure of what equipment, if any, will be
allotted to them. The original OIG report recognized the diverse geography of
the northern border sectors, which have dense forests and hundreds of miles of
lakes and rivers, and therefore different equipment needs. Two of the northern
sectors (Detroit and Buffalo) are responsible for patrolling a border that is
entirely comprised of water, except for crossing points at bridges and tunnels.

       During our interviews, the chief patrol agents generally responded
positively in describing the availability and the condition of their vehicles. The
northern sectors received 41 new vehicles in FY 2001. The number and
condition of boats available to conduct enforcement activities also has
improved since our original report. However, three chief patrol agents said
shortages in boats still affect enforcement activities. Most of the chief patrol
agents also said that additional air patrol support would enhance enforcement
operations.

      The Border Patrol has made additions to the sensor systems arrayed on
the northern border, deploying additional sensor systems to five of the eight
sectors in FY 2001. All eight sectors received additional night vision devices in
FY 2001.3

     The Border Patrol’s radio equipment continues to be problematic. For
example, five of the eight chief patrol agents said their radio systems were



        3The INS’s Northern Border Strategy does not address the number of sensor systems
ultimately needed or the parts of the border that should be covered by the systems.
U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
either completely or partially outdated, inadequate, or lacked other significant
capabilities.

       Responsibility for INS’s radio systems resides with the Department of
Justice’s (DOJ) Wireless Management Office (WMO), which manages the
Justice Wireless Network. The WMO controls all procurement activities and
operating funds for the entire DOJ radio system. The Border Patrol identifies
its needs to the WMO and is subject to the WMO’s processes and decisions.
The DOJ’s existing radio system is scheduled for replacement in 2005. The
Border Patrol does control the acquisition of hand-held radios and has
purchased radios for the six sectors still equipped with the existing old radio
systems.


Intelligence Support

       The intelligence capability to support enforcement operations in the
northern border sectors continues to be limited. Most chief patrol agents
described their intelligence gathering and sharing capabilities as good, given
the resources available. However, most chief patrol agents stated a need for
additional intelligence officers. As previously discussed, the Border Patrol has
not received support position enhancements. This includes intelligence analyst
positions. These staffing limitations restrict the Border Patrol’s ability to
effectively analyze and disseminate the intelligence data it has collected.

      According to some data supplied by Border Patrol officials, the northern
sectors have received technology enhancements to provide better intelligence
support to law enforcement operations. These include additional systems that
provide Border Patrol agents with access to certain databases and provide tools
to support law enforcement operations.

      The chief patrol agents all characterized the intelligence relationships
and cooperation with Canadian intelligence and law enforcement authorities as
ranging from very good to exceptional. The same was said of the relationship
with state and local law enforcement.


Changes in Operations Since September 11, 2001

       The chief patrol agents unanimously agreed that border control and
security had become their number one priority since September 11, 2001.
Consequently, collateral duties such as recruitment and training were not
receiving the previous level of attention. Some chief patrol agents used the
term “forward deployment” in describing an increase of Border Patrol agents
and equipment to the border to project a heightened border presence. One
U.S. Department of Justice                                                            9
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004
chief patrol agent said the four agents assigned to interior stations in his sector
were redeployed to stations on the border. This action is forcing the sectors to
reduce their emphasis on other enforcement duties. For example, the Border
Patrol may not be able to respond as quickly to a request from state and local
law enforcement agencies for assistance on an immigration-related matter.

        Since September 11, 2001, almost all sectors immediately increased
working hours (12-hour days in most instances), established 6 or 7 day work
weeks, and cancelled all annual leave. The ceiling for overtime pay for Border
Patrol agents has been temporarily set aside to allow for extended duty hours.
The chief patrol agents said they have been employing 24-hour, 7-day-a-week
operations in as many of the sector’s stations as possible, given current staffing
levels. One chief patrol agent said the three railroad bridges and the three
boats in his sector are now being staffed 24 hours, 7 days a week. Even with
the additional overtime, the northern sectors still cannot staff all stations 24
hours a day, 7 days a week. According to the chief patrol agents, the extended
duty hours have not yet had a negative effect on morale or duty performance.
Still, they have begun to reduce the number of hours they are requiring agents
to work and are approving leave requests.

       On December 14, 2001, the INS directed the northern Border Patrol
sectors to submit plans to create or expand Integrated Border Enforcement
Team (IBET) and/or Integrated Maritime Enforcement Team (IMET) at their
locations. The IBET/IMETs are international, multi-agency groups that pool
law enforcement assets, share information, and work collaboratively with all
law enforcement agencies having jurisdiction with the United States-Canada
border. The plans are due to INS headquarters in January 2002.




U.S. Department of Justice                                                            10
Office of the Inspector General
Evaluation & Inspections Division
Follow-Up Report on the Border Patrol’s Efforts to Improve Northern Border Security
(Redacted Version)
I-2002-004


                                    CONCLUSION



       Since September 11, the INS has stepped up its efforts to enhance
northern border security. In December 2001, the INS, the Attorney General,
and the Canadian government agreed to a 30-point plan to accomplish this
task. The 30-point plan is a work in progress and it is too early evaluate
implementation or assess its effectiveness. Many elements contained in Border
Patrol’s 1994 Strategic Plan Phase IV for securing the northern border are part
of the 30-point plan.

      Although we have not reviewed the 30-point plan in depth as part of this
follow-up review, we believe the INS should transform appropriate elements of
the 30-point plan into a formal INS strategic plan to address the continuing,
long-term needs of the northern border.

      We found that the Border Patrol has made some improvements in
enhancing its northern border operations. The INS’s IBET/IMET initiatives to
increase international and multi-agency cooperation should improve security.
The northern border sectors have received increases in sensor systems, night
vision devices, computer systems, and vehicles. Yet there still are areas that
need attention. The northern border has received minimal Border Patrol agent
enhancements and no support staff enhancements. Many stations still cannot
operate 24 hours a day, 7 days a week. The communication system is still
inadequate and not only presents a law enforcement problem but could pose a
safety issue for Border Patrol agents.

      As of December 2001, only 368 full-time Border Patrol agents monitor
the 4,000-mile northern border. This understaffing continues to offer an
avenue for aliens, criminals, and terrorists to enter the United States illegally.
Even though the Border Patrol agents are augmented by the temporary
assignment of Border Patrol agents, an increase in sensor systems and other
devices, the Border Patrol’s current staffing and resources still cannot
adequately assess or respond to illegal activity on the northern border.




U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation & Inspections Division
